U.S. Department of                                        The Inspector General             Office of Inspector General
Transportation                                                                              Washington, DC 20590
Office of the Secretary
of Transportation

December 21, 2010

The Honorable James L. Oberstar                                   The Honorable John L. Mica
Chairman, Committee on Transportation                             Ranking Republican Member,
 and Infrastructure                                               Committee on Transportation
United States House of Representatives                             and Infrastructure
Washington, DC 20515                                              United States House of Representatives
                                                                  Washington, DC 20515

The Honorable Jerry F. Costello                                   The Honorable Thomas E. Petri
Chairman, Subcommittee on Aviation                                Ranking Republican Member,
Committee on Transportation                                       Subcommittee on Aviation
 and Infrastructure                                               Committee on Transportation
United States House of Representatives                             and Infrastructure
Washington, DC 20515                                              United States House of Representatives
                                                                  Washington, DC 20515

Dear Chairmen Oberstar and Costello and Ranking Members Mica and Petri:

At your request, we are reviewing the Federal Aviation Administration’s (FAA)
efforts to develop the Next Generation Air Transportation System (NextGen) and its
response to the RTCA 1 Government/industry task force recommendations, issued in
September 2009, for operational improvements to NextGen in the midterm (through
2018). Chairman Costello asked us to testify on our results thus far at a November
hearing that was subsequently cancelled. Because of the central role NextGen plays
in reauthorizing FAA programs and its budgetary implications, you asked us to
formally transmit our results with respect to (1) FAA’s progress in responding to the
task force report, (2) potential barriers to implementing the task force
recommendations and realizing benefits, and (3) ongoing problems with a key
modernization effort that could materially affect the pace of NextGen.

In summary, FAA is incorporating RTCA’s recommendations in its NextGen plans
but has not specified how it will execute key initiatives for addressing delays in major
metropolitan areas. For example, FAA is still working to establish definitive
1
    Organized in 1935 as the Radio Technical Commission for Aeronautics, RTCA, Inc., is a private, not-for-profit
    corporation that develops consensus-based recommendations regarding communications, navigation, surveillance, and air
    traffic management system issues. It functions as a Federal Advisory Committee.


CC-2011-001
                                                                                                                            2

milestones to integrate new airspace designs and procedures at metroplex locations. 2
FAA also has yet to establish a mechanism for integrating metroplex initiatives with
programs to better manage airport surface operations. At the same time, FAA faces
several organizational, policy, logistical, and training challenges that could impede
NextGen implementation in the midterm; these include working across diverse agency
lines of business and establishing policies on data sharing. FAA must also resolve
implementation problems with critical modernization projects, such as En Route
Automation Modernization (ERAM)—a $2.1 billion NextGen tool for processing
flight data—which has experienced software problems and delays at key sites. Delays
with ERAM will have a cascading effect on other fundamental NextGen programs
now and well into the future, including the task force’s recommended improvements
for the high-altitude environment. The following discusses these issues in greater
detail.

BACKGROUND
Since 2006, our reports and testimonies have identified NextGen as a high-risk effort
and one of the Department’s top management challenges for fiscal years 2008 through
2011, and we have made numerous recommendations to help FAA achieve its
NextGen goals. To gain operator acceptance and solidify commitments from both
Government and industry, FAA asked RTCA to reach a consensus on the NextGen
operational improvements planned for the 2012 to 2018 timeframe, help develop
plans to maximize NextGen benefits, and justify industry investment in mid-term
capabilities. In September 2009, RTCA delivered its final report to FAA. 3 The task
force findings and recommendations are consistent with our work, covering areas
such as maximizing the use of equipment already on aircraft and new procedures and
enhancing information sharing among FAA and airspace users to reduce delays. The
RTCA report also identified the following key issues:

    • Users are willing to support FAA communications, navigation, and surveillance
      infrastructure programs that require user investments only if those programs
      provide a clear and unambiguous path to immediate and tangible benefits to the
      users.
    • Focusing on delivering near-term operational benefits, rather than on the entire
      infrastructure, would help gain operator confidence in FAA plans and encourage
      users to invest in NextGen. A key element for accomplishing this is obtaining
      industry and FAA agreement on common metrics to measure benefits.
    • Assigning responsibility, accountability, authority, and funding within the Agency
      is critical to accomplish all associated and necessary non-infrastructure tasks (i.e.,
      development of procedures and policy) and to achieve NextGen benefits.
2
    A geographic area covering many airports, serving major metropolitan areas with a diversity of aviation users and aircraft
    operators.
3
    RTCA, “NextGen Mid-Term Implementation Task Force Report,” September 9, 2009.


CC-2011-001
                                                                                                                             3

The RTCA task force made 34 recommendations: 28 in 5 primary areas calling for
FAA to take advantage of existing technologies and on-aircraft equipment that can
quickly generate user benefits, 2 cross-cutting recommendations that are integral to
supporting improvements in each of the 5 areas, and 4 overarching recommendations
to encourage operator investment and enhance confidence within the aviation
community in FAA’s ability to implement new capabilities (see enclosure for details).
The report also acknowledged that major programs, such as ERAM and Automatic
Dependent Surveillance-B (ADS-B), 4 are fundamental to achieving mid-term benefits
envisioned for NextGen but did not make specific recommendations for these
programs.

FAA’S NEXTGEN PLAN INCLUDES TASK FORCE
RECOMMENDATIONS BUT LACKS A DETAILED IMPLEMENTATION
STRATEGY
FAA endorsed the task force’s recommendations by incorporating them into its
current NextGen Implementation Plan (NGIP). 5 However, it has not published a
detailed plan for completing key actions to benefit major metropolitan areas. In
addition, earlier this year, RTCA identified other implementation gaps, such as
differences in milestones and locations for targeting improvements.

FAA Is Developing Metroplex Teams but Has Not Identified Specific
Timeframes for Implementing Key Initiatives
A critical task force recommendation is to improve airspace efficiency in metropolitan
areas, such as Chicago, New York, and Southern California. FAA recently devised a
strategy to prioritize locations and plans to start with Dallas, Texas, and Washington,
DC. However, FAA is still working to establish definitive milestones to integrate
new airspace designs and procedures and a strategy to measure benefits at these and
other airports beyond January 2011 (see table 1 on the next page).

FAA’s NextGen Management Board 6 developed and recommended a set of criteria
for prioritizing airport sites, which it submitted to a new RTCA advisory committee—
the NextGen Advisory Committee (NAC)—to gain industry approval. The NAC is
working to gain consensus from a broader group of aviation representatives beyond




4
    ADS-B is a surveillance system that uses information from satellite-based systems to identify and track aircraft positions.
5
    The NGIP is an annual plan that sets out FAA’s vision for NextGen, now and into the midterm. The plan further
    identifies the goals FAA has set for technology and program deployment and the commitments FAA has made in support
    of that vision.
6
    The NextGen Management Board is chaired by FAA’s Deputy Administrator with representatives from all key Agency
    lines of business. The Board is the ultimate authority in managing NextGen and is empowered to force timely resolution
    of emerging NextGen implementation issues.


CC-2011-001
                                                                                                                           4

air traffic, including airport representatives. 7 For now, however, it remains uncertain
when key locations that have system-wide impacts, like New York, will be addressed.

Currently, FAA is primarily focused on developing prototype study teams and has
convened two—one in Dallas and one in Washington, DC—to develop
recommendations for upgrading airspace procedures at those airports.

Table 1. FAA Timeframes for Implementing Recommendations Related to
Metroplexes

Team                            Task
May 2010
Mock study team                 Completed its review at Denver Metroplex to simulate how a study team
                                would develop recommendations for a particular metroplex site.
September - December 2010
Two prototype study             Develop recommendations for procedures and airspace upgrades at the
teams                           Dallas-Fort Worth and Washington, DC, metroplexes.
January 2011
Mature study teams              Build on lessons learned from the prototype study teams. This will lead to
                                design and implementation teams for prototype sites. Process will continue
                                until a total of 23 sites are completed.
Beyond January 2011
Design and                      Leverage structure in moving toward implementation of integrated airspace
Implementation teams            procedures. Goal is for each site to take 18 to 30 months to complete.
Source: FAA

FAA also recently began planning a way to select members for the metroplex design
and implementation teams. While the RTCA task force believes FAA has done a
good job of getting the right mix of people on the two prototype study teams, it has
also told FAA that it will be difficult to get appropriate people on future metroplex
study and design teams due to the limited number of available FAA and industry
representatives with the expertise needed. This issue could be further complicated
because study and design team responsibilities will be collateral duties, and FAA
plans to have multiple teams conduct work at the same time. Further, while RTCA
task force officials are encouraged by FAA’s efforts to initiate the metroplex work,
they are concerned because FAA’s approach does not yet integrate other task force
recommendations, such as better managing airport surface operations. RTCA task
force officials have stated that preliminary results of the first study teams show a need
for better coordination with officials responsible for surface programs.

7
    The NAC, which had its first meeting on September 23, 2010, is a Federal advisory committee that will develop a
    common understanding of NextGen priorities in the context of overall NextGen capabilities and implementation
    constraints, with an emphasis on the midterm (through 2018). The NAC will include representation from affected user
    groups, including operators, manufacturers, air traffic management, aviation safety, airports, and environmental experts.
    It replaced the Air Traffic Management Advisory Committee (ATMAC), which completed its work in October 2010.
    FAA plans to have the NAC make recommendations for how to measure implementation benefits.


CC-2011-001
                                                                                                     5

The Task Force Identified Implementation Gaps That May Hinder
Industry’s Willingness To Commit to NextGen Initiatives
The RTCA task force identified 20 gaps between its recommendations and FAA’s
NGIP (see table 2). Many of these relate to differences in milestones and locations
and the task force’s recommendation that FAA develop and document more specific
plans.

Table 2. Key Implementation Gaps Identified by the RTCA Task Force
Area                Gap                        Current Status

Airport Surface     Establish a single         FAA was originally unsure of the need for a single
Operations          manager to handle          surface lead manager; however, FAA has recently
                    implementing surface       stated it remains committed to establishing one by
                    recommendations.           the end of 2010.
Runway Access       Adopt dates and            FAA has adopted task force dates and locations in
                    locations included in      some cases; however, locations and dates for key
                    the task force             recommendations (e.g., a precision surveillance
                    recommendations.           system specifically for runways and a new automated
                                               tool to maximize benefits of routes) remain undefined
                                               or subject to future FAA business cases.
High-Altitude       Pursue integration of      FAA believes that deployment in 2013 is reasonable;
Cruise              an automated               however, the task force believes that delay in
                    controller tool for        integration leads to conflicting and erroneous
                    managing aircraft with     information in other systems.
                    other Traffic Flow
                    Management tools in
                    2011 rather than 2013.
Data                Additional collaboration   FAA is meeting with individual flight operators and
Communications      needed to understand       will work implementation issues through the
                    and mitigate               DataComm contract. To reduce risk, industry needs
                    constraints on             assurance that the implementation date for en route
                    implementation.            services is a stable commitment. FAA has already
                                               delayed this capability a year from 2016 to 2017.
Source: NextGen Implementation Working Group

According to FAA, it has addressed these gaps. However, FAA’s plans for
implementing RTCA recommendations do not reflect a tactical approach for
delivering benefits in the near term. Many of the gaps identified by RTCA involve
differences in where or when FAA plans to implement specific activities in response
to the RTCA recommendations. FAA contended that there was no gap as long as its
action plans delivered capabilities within the task force’s recommended overall
timeframes—even if some activities were delayed or implemented elsewhere.
However, individual industry operators make their investment decisions based on
both the timing and location of specific activities. RTCA task force officials maintain
that FAA needs to provide detailed action plans and document its rationale for
deviations from recommended actions. On October 28, FAA provided RTCA with its
rationale and stated that it plans to update its NGIP, which is due next March. While

CC-2011-001
                                                                                                                        6

RTCA task force industry representatives recognize that FAA has closed some of the
gaps, they remain concerned with FAA timelines and state that if the timeline for
some capabilities related to FAA’s Data Communications (DataComm) Program are
moved to 2017, as FAA has proposed, operators will need to revisit their business
cases and willingness to commit to advance NextGen at certain locations.
Although gaps remain, RTCA task force officials have agreed to wait for the updated
NGIP to determine whether the updated NGIP addresses industry’s concerns.

SIGNIFICANT CHALLENGES COULD UNDERMINE FAA EFFORTS
TO IMPLEMENT TASK FORCE RECOMMENDATIONS
FAA faces several organizational, policy, logistical, and training challenges that could
impede its efforts to implement the RTCA task force recommendations and delay
expected benefits. To complete RTCA recommendations, FAA will have to
effectively work across diverse agency lines of business—including its Aircraft
Certification Service, Flight Standards Service, and Air Traffic Organization—which
it has not done effectively in the past. For example, as we testified in July 2009,
organizational barriers and fragmented efforts hindered FAA’s process to approve
new flight procedures. 8 Task force leaders also pointed out that FAA’s culture of
focusing on large, nationwide infrastructure programs, such as ADS-B, rather than a
focused, integrated approach for specific locations was a factor impeding progress.

Policy challenges include adopting the “best-equipped, best-served policy”
recommended by RTCA. FAA’s current policy calls for aircraft to be cleared for
landing on a first-come, first-served basis regardless of their equipage. According to
RTCA, the new policy would give priority to users equipped with new systems, which
would encourage airspace users to equip their aircraft with advanced avionics and
thereby advance NextGen. This will require extensive analyses to determine if the
policy can be safely implemented, including addressing concerns about mixed
equipage as aircraft transition to the NextGen system. Contractor and industry
experts believe that between 80 and 100 percent of aircraft at any given location
should be equipped with new NextGen systems to realize benefits and limit the
potential for introducing new hazards. Transitioning to the recommended policy
would also require FAA to respond to concerns about equity among users.

Policies governing information sharing will also need review. The task force
recommended that FAA revamp its systems to accommodate the agile flow of
information with airlines’ operations centers and airports—a major element of
NextGen. While FAA and the airline industry are developing new systems and
strategies for sharing information, both are concerned about data security, ownership,
and compatibility with varied information technology systems. In the past, FAA data

8
    OIG Testimony Number CC-2009-086, “Challenges in Implementing Performance-Based Navigation in the U.S. Air
    Transportation System,” July 29, 2009. OIG reports and testimonies are available on our website: www.oig.dot.gov.


CC-2011-001
                                                                                                                           7

sharing agreements with airlines and airports were on a case-by-case basis.
Unresolved policy issues include the role of Government and whether a competitive
industry market for privately enhanced information products will exist.

At the same time, FAA faces several logistical challenges, which, if left unresolved,
could significantly delay NextGen implementation. For example, making better use
of existing runways, as RTCA recommends, requires updated safety assessments for
new, complex runway configurations—such as closely spaced parallel runways and
converging or intersecting runways—at several busy airports.             While such
assessments are needed, they could take up to 4 years to complete.

Our July 2009 testimony also noted the challenges FAA faces in implementing Area
Navigation (RNAV) and Required Navigation Performance (RNP). 9 These issues
were also included in RTCA’s recommendations, but FAA has yet to determine how
to implement them. FAA’s current method for implementing new RNP procedures
relies heavily on existing routes with no added capacity; as a result, air carriers are not
widely using them. Also, FAA has not integrated new flight procedures with its
ongoing airspace redesign projects, which also limits their usability. Further,
environmental impact statements, required for new flight procedures that maximize
benefits, can take up to 8 years to complete. FAA is examining ways to streamline
the process for implementing new procedures and completed its initial review and
report in September 2010. 10

Finally, FAA is challenged to develop effective training programs on new NextGen
systems and procedures. Our work has shown that FAA’s training often consists of
briefings rather than comprehensive courses on RNAV/RNP. As FAA begins
developing more advanced airspace routes in metropolitan areas, it will face
difficulties with providing extensive training for controllers—many of whom are
recent hires assigned to complex facilities, such as New York and Chicago. Further,
the nearly 11,000 new controllers FAA plans to hire through 2019 will have to first
work with existing systems and procedures and then move to new NextGen roles and
responsibilities, which will require them to transition from controlling to managing air
traffic. Industry experts note that investments in more simulators are needed to
support expanded controller training.




9
     New satellite-based routes and procedures are commonly referred to as RNAV and RNP. For RNAV, pilots can use a
     combination of Global Positioning System (GPS) and other self-contained systems on-board aircraft to fly any desired
     flight path. RNP is a form of RNAV that adds monitoring and alerting capabilities to the cockpit to alert the pilot when
     the aircraft cannot meet specified navigation performance requirements. RNP has the potential to allow more “lanes” or
     routes in the same airspace, creating additional capacity where needed.
10
     FAA Report, Navigation Procedures Project - Final Report, September 2010.


CC-2011-001
                                                                                                                                8


PROBLEMS WITH ERAM COULD MATERIALLY AFFECT FAA’S MID-
TERM NEXTGEN PLANS
The RTCA task force’s report stated that FAA’s efforts with major programs such as
ERAM are fundamental to achieving mid-term benefits envisioned for NextGen.
Since 2002, FAA has planned for the ERAM program to replace hardware and
software at facilities that manage flight data for high-altitude traffic in the National
Airspace System. 11 FAA originally planned to deploy ERAM to all en route facilities
by the end of 2010 at a cost of $2.1 billion. However, due to software problems at its
initial operating site, ERAM is experiencing cost increases and schedule slips that
could impact other transformational NextGen programs and FAA’s timeframes for
implementing the task force’s improvements targeted for the high-altitude
environment.

ERAM Software Problems at Initial Site Have Caused Schedule Delays
and Cost Overruns
During testing at the key initial operating site in Salt Lake City, FAA and its
contractor, Lockheed Martin, encountered significant software-related problems that
have pushed schedules out almost a year and increased cost estimates by more than
$65 million above original estimates. Examples of problems include interface issues
between the key sites and other air traffic facilities, radar processing failures, errors
that tag flight data to the wrong aircraft, and hand-off problems between controllers.
To compensate for these problems, controllers were forced to rely on a large number
of workarounds that increased workload and fatigue and diverted them from
managing traffic.

As a result, after a number of operational runs, FAA indefinitely postponed the in-
service and operational readiness decisions 12 for ERAM at Salt Lake City—originally
planned for December 2009. In March 2010, FAA placed a moratorium on further
operational ERAM testing at the key sites to fix the more than 200 problems
identified, reassess its efforts, and develop a new course of action. FAA does not
believe that ERAM is fundamentally flawed and is working with Lockheed Martin to
address the identified problems, improve the system’s stability, and achieve the in-
service decision at Salt Lake City. FAA has resumed testing, and senior FAA

11
     ERAM replaces the current En Route automation system, which consists of the more than 30-year old Host computer
     system hardware, software, its backup system, as well as more than 800 computer display workstations at FAA’s Air
     Route Traffic Control Centers. The system processes flight radar data, provides communications and generates display
     data to air traffic controllers.
12
     An in-service decision (ISD) authorizes deployment of a system into the operational environment. It occurs after
     demonstration of initial operational capability at the key test site. The decision establishes the foundation for operational
     readiness to be declared at key site and subsequent sites following completion of joint acceptance and inspection by the
     operating service organization and certification of compliance with information security requirements. The in-service
     decision is based on testing to verify performance and operational readiness. For ERAM, the Operational Readiness
     Demonstration (ORD) is the final certification required for the system to become operational and for FAA to no longer
     retain the HOST Computer system as a backup.


CC-2011-001
                                                                                                                           9

officials state that system stability is improving, testing is underway at additional
sites, and progress is being made in achieving continuous operations without the need
to fall back to the legacy system.

The current problems with ERAM are disconcerting since the system passed testing at
FAA’s Technical Center and achieved Government acceptance. 13 When we asked
why these issues were not caught at the FAA Technical Center, FAA testing officials
stated that many of the problems encountered could only be identified in a live
environment and that testing in a laboratory environment could not replicate actual
field conditions. FAA test officials also note that controllers are adjusting to a new
system that does not perform in the same manner as its legacy system. We will
examine these issues in greater detail during our ongoing ERAM review.

FAA program officials state that revised cost and schedule parameters for completing
ERAM will be available this month. The next major milestones focus on getting Salt
Lake City fully operational and completing the independent operational assessment. 14
Program officials state that they recently completed the initial portion of this
assessment and are preparing the preliminary report. The final report is expected in
early 2011. This schedule could slip further as FAA and Lockheed Martin are now
planning to add new capabilities while attempting to resolve problems identified in
earlier versions of the software. This is a watch item because updated software
releases at the key site have exhibited new problems (e.g., inter-facility interface
issues that lock up the system) and caused recurrence of old ones.

Our work shows that considerable work and risk lie ahead to deliver ERAM systems
that meet requirements to 20 of the Nation’s air traffic facilities. A recent MITRE
analysis cautions that FAA’s initial corrective action plan was not comprehensive and
that additional time and resources will be necessary to accommodate site-specific
operational differences in ERAM. 15 A key measure of ERAM success depends on
how the system performs at large complex sites like Chicago or New York Center.
Performance at these large locations will be the driving factor behind potential future
delays and cost overruns.

FAA has already expended almost $1.8 billion on ERAM and is now spending almost
$15 million a month to field the system. FAA originally planned to spend
$131 million in fiscal year 2011 but now estimates that it will require an additional
13
   Government acceptance (GA) of ERAM by the FAA Technical Center requires meeting specific criteria established for
   the project baseline. These criteria include successfully completing developmental testing activities per the Statement of
   Work, listing all problem trouble reports, demonstrating that all contractual requirements are satisfied, and completing
   both functional and physical configuration audits. At GA, the Government (i.e., FAA with ERAM) assumes full control
   and responsibility of the system.
14
   Independent Operational Assessment, formally called Independent Test and Evaluation (IOT&E), is an assessment of a
   new system’s operational effectiveness and operational suitability performed by an Air Traffic Service (ATS) Test Team
   on systems designated for IOT&E by ATS.
15
   MITRE Corporation and Massachusetts Institute of Technology/Lincoln Laboratory Report, Independent Assessment of
   the ERAM Program, October 15, 2010. For official use only and not approved for public release.


CC-2011-001
                                                                                                             10

$70 million this year to correct problems with ERAM. Yet, this is a “down
payment”—not the cost to complete the program as originally planned. Delays in
implementing ERAM will force FAA to sustain aging equipment longer than planned
and retrain controllers so they are familiar with both the legacy and ERAM systems.
While FAA is in the process of finalizing cost and schedule estimates for completing
ERAM, our work and the MITRE study suggest it will take between 3 to 6 years and
as much as $500 million more to complete the effort. A cost escalation of this
magnitude will affect FAA’s capital budget and could force the Agency to reallocate
funds from other modernization projects to pay for ERAM.

Continued Problems With ERAM Will Impact Other NextGen Programs
and Efforts
As we have cautioned in our prior reports and testimonies, continuing problems with
ERAM will have a cascading effect on FAA’s NextGen efforts. For example, of the
eight currently identified NextGen portfolios, ERAM is a critical component of five
of them, including collaborative air traffic management and automation needed to
support aircraft separation. Further, our analysis of FAA’s transformational programs
shows critical interdependencies between ERAM and three other transformational
programs—two of which have already been allocated more than $500 million to
integrate and align with ERAM (see table 3).

Table 3. ERAM Interdependencies and FAA’s NextGen Transformational Programs

Transformational Program Description                     ERAM Interdependencies

Automatic Dependent Surveillance-Broadcast (ADS-B)

Uses aircraft avionics and ground-based systems to       FAA plans to provide the ERAM program as
provide information on aircraft location to pilots and   much as $50M to display ADS-B data for use by
traffic controllers.                                     controllers in the high-altitude environment.

Data Communications (DataComm)

Provides two-way data communication between              FAA plans to provide the ERAM program as
controllers, automation platforms, and flight crews.     much as $400M to develop an interface that
DataComm is intended to supplement rather than           provides controller-pilot message processing
replace voice communications in all phases of flight.    and displays information to controllers in the en
                                                         route centers.


System-Wide Information Management (SWIM)

Provides a more agile exchange of information            FAA plans to provide the ERAM program with as
through a secure, NAS-wide information web that will     much as $117.7M (for SWIM Segment 1 only) to
connect FAA systems and improve interaction with         modernize and enhance its flight data
other agencies, air navigation service providers, and    processing and external interfaces with terminal
airspace users.                                          air traffic control and the Traffic Flow
                                                         Management systems.

Source: OIG analysis of FAA documents



CC-2011-001
                                                                                                                     11

Continued problems and delays with ERAM will also impact other related NextGen
efforts. For example, the MITRE report points out that schedule delays with ERAM
will impact FAA’s traffic flow management efforts and new routes that rely on
equipment already on aircraft. Also, aside from the MITRE report, FAA enterprise
architecture documents indicate that ERAM delays will affect FAA’s development of
trajectory-based operations 16 and the transition to a common automation platform for
terminal and en route operations. In addition, future software enhancements that will
add new NextGen capabilities (i.e. flexible and dynamic airspace), estimated to cost a
billion dollars, could also be impacted by prolonged ERAM delays.

CONCLUSION
The RTCA task force’s recommendations are an important step for transitioning to
NextGen and a way for FAA to build confidence among users in its ability to
implement NextGen and deliver much needed benefits. Yet, much work remains for
FAA to effectively implement RTCA’s recommendations and modernize the aviation
system. Unless FAA effectively addresses RTCA’s recommendations and resolves
problems with ERAM, its ability to meet mid-term goals for NextGen and safeguard
taxpayers’ investment remains uncertain.

We discussed our results with the Deputy Administrator and the Vice President for
NextGen and incorporated their views where appropriate. We will continue to review
FAA’s responsiveness to the task force recommendations and the barriers that could
limit the realization of much needed benefits, with a focus on efforts to address delays
at metroplex locations. In a separate review, we are assessing progress with ERAM
and its impact on NextGen. If you have any questions about our ongoing reviews,
please contact me at (202) 366-1959 or Jeffrey B. Guzzetti, Assistant Inspector
General for Aviation and Special Program Audits, at (202) 366-0500.

Sincerely,




Calvin L. Scovel III
Inspector General

Enclosure

cc: Federal Aviation Administrator


16
     Trajectory-based operations focus on more precisely managing aircraft from departure to arrival with the benefits of
     reduced fuel consumption, lower operating costs, and reduced emissions.


CC-2011-001
                                                                                                  Enclosure


Key RTCA Task Force Recommendations for NextGen’s Mid-Term Phase

 Area                       Recommended Capability
 Airport Surface            Improve the management of airport taxiways, gates, and parking areas by
 Operations                 revamping systems for sharing information between FAA, airline operations
                            centers and airports. Candidate locations include all major airports
                            beginning with the New York area airports.
 Runway Access              Improve the use of converging or closely spaced runways during low
                            visibility conditions. Candidate airports include Kennedy, Las Vegas, and
                            Newark.
 Metroplex Airspace         Improve the capacity of airspace that affects multiple airports near large
                            metropolitan areas, including Chicago, New York/New Jersey, and Southern
                            California.
 High-Altitude Cruise       Improve high-altitude flights by, among other things, increasing the
                            availability of real-time data on the status of airspace used jointly by civilian
                            and military aircraft. The first candidate location is Minneapolis Center.
 Access to the National Improve service at smaller airports by implementing more precision
 Airspace System        approaches and departures and expanding ways to track aircraft in non-
                        radar airspace. Full range of candidate locations is still under development.
 Cross-Cutting
 Integrated Air Traffic     Create an Integrated Air Traffic Management System that leverages new
 Management                 technologies and collaboration with users and implement solutions to traffic
                            flow problems that are effectively integrated across air traffic control
                            domains to achieve service providers’ and users’ efficiency goals.
 Data Communications Improve cruise and transition operations by using data communications to
                     enable more efficient use of available or forecast capacity in the National
                     Airspace System. Increase the ability to better adapt to changing conditions
                     through improved dissemination of tactical reroutes around weather forecast
                     and congestion.
 Overarching
                            Achieve existing separation standards.
                            Incentivize equipage.
                            Streamline the operational approval and certification processes for new
                            flight procedures.
                            Establish institutional mechanisms for transparency and collaboration in the
                            planning, implementation, and post-execution assessments.
Source: OIG analysis of RTCA Task Force Report




CC-2011-001
